<html>
<title> - MIGRATION CRISIS: OVERSIGHT OF THE ADMINISTRATION'S PROPOSED $1 BILLION REQUEST FOR CENTRAL AMERICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   MIGRATION CRISIS: OVERSIGHT OF THE
                  ADMINISTRATION'S PROPOSED $1 BILLION
                      REQUEST FOR CENTRAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2015

                               __________

                           Serial No. 114-43

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
94-390PDF                  WASHINGTON : 2015                       
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="680f1807280b1d1b1c000d0418460b070546">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota<greek-l>Until 
    5/18/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
TOM EMMER, Minnesota<greek-l>Until 
    5/18/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Scott Hamilton, Central America Director, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State...................     7
The Honorable William R. Brownfield, Assistant Secretary, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................    13
Ms. Paloma Adams-Allen, Deputy Assistant Administrator, Latin 
  America and the Caribbean Bureau, U.S. Agency for International 
  Development....................................................    21
The Honorable Alan D. Bersin, Assistant Secretary and Chief 
  Diplomatic Officer, Office of Policy, U.S. Department of 
  Homeland Security..............................................    29
Lieutenant General Kenneth E. Tovo, USA, Military Deputy 
  Commander, U.S. Southern Command, U.S. Department of Defense...    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Scott Hamilton: Prepared statement...........................     9
The Honorable William R. Brownfield: Prepared statement..........    15
Ms. Paloma Adams-Allen: Prepared statement.......................    23
The Honorable Alan D. Bersin: Prepared statement.................    31
Lieutenant General Kenneth E. Tovo, USA: Prepared statement......    44

                                APPENDIX

Hearing notice...................................................   114
Hearing minutes..................................................   115


                   MIGRATION CRISIS: OVERSIGHT OF THE
                  ADMINISTRATION'S PROPOSED $1 BILLION.
                      REQUEST FOR CENTRAL AMERICA

                              ----------                              


                        THURSDAY, APRIL 30, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. The hearing will come to order.
    We will get through our opening statements and then we will 
begin the opening statements from the panelists, and when we 
get to a stopping point to go vote we will do that and we will 
come back and resume shortly after votes.
    So thank you, guys, for being here. I want to thank the 
general for a briefing recently with SOUTHCOM that was very, 
very helpful.
    And so today we meet to conduct oversight of the 
administration's Fiscal Year 2016 $1 billion budget request for 
Central America, which would roughly triple the amount of 
funding for the region.
    According to the administration, this funding would support 
the U.S. strategy for engagement in Central America to promote 
prosperity, security, and good governance.
    It would also assist the Central American governments in 
implementing their Alliance for Prosperity plan.
    These efforts aim to address the massive influx of migrants 
we saw at our Southwest border last summer in which over 68,000 
unaccompanied children sought admittance to the United States, 
75 percent who are from the Central American countries of El 
Salvador, Guatemala, and Honduras, also known as the Northern 
Triangle area.
    As a result of this migration crisis, U.S. engaged in media 
campaigns to discourage migration, conducted law enforcement 
operations to dismantle human smuggling networks, and created a 
new in-country refugee parole processing pilot program to 
provide a safer way for children and their parents to migrate 
in the United States.
    Under this program, parents living in the United States do 
not need to be U.S. citizens or in lawful immigration status to 
qualify for their child and spouse living in Central America to 
gain admittance to the United States.
    Instead, lawful immigrants who have benefitted from the 
presence of executive overreach on immigration are now also 
allowed to unify their families through this program.
    This is appalling to me, and while I agree that we need to 
do all in our power to prevent another migration crisis, I am 
baffled as to how this program would achieve its goals since it 
is a welcome mat for a broader border surge and does nothing to 
deter Central America migration to the United States since it 
only furthers the narrative of family reunification--it is late 
in the afternoon, I guess--that many Central Americans seek.
    Nevertheless, I do want to commend the leadership that 
governments in the region have shown to address the migration 
crisis.
    Earlier this month, I led a congressional delegation to the 
seventh Summit of the Americas in Panama and our delegation met 
with the Presidents of El Salvador, Guatemala, and Honduras to 
discuss their Alliance for Prosperity plan and how it will 
address the root causes of migration.
    It was a fruitful discussion and I told them that their 
plan is a good first step in the right direction. However, I 
also emphasized that money alone would not be sufficient to 
solving these problems.
    Similarly, I would like to--I want to commend the actions 
of Mexico on increasing its immigration enforcement efforts 
which are critical to U.S. border security.
    Last year, Mexico's ministry of interior reported that it 
removed over 104,000 Central American migrants and Mexican 
agents conducted more than 150 raids on northbound trains that 
previously transported 500 to 700 migrants through Mexico to 
the U.S. border three times a week.
    This is a significant change from Mexico's past practice 
but I also acknowledge that much more work needs to be done. 
Some believe that these efforts have been successful to the 
point that we will not see high levels of migration this year 
that we saw last year.
    I don't share that optimism, given the increasing numbers 
of Central American migrants we are seeing at Mexico's southern 
border on the way to the United States.
    According to Mexico's National Institute of Migration, 
Mexico is catching the highest number of Central American 
migrants so far to date with numbers nearly double what they 
were last year compared to the same time frame.
    During the first half of 2015, Mexico has apprehended 
almost 60,000 migrants. This month alone Mexico apprehended 
almost 14,000 migrants as opposed to 8,000 in April of last 
year.
    Furthermore, according to polling by the State Department, 
it appears the desire to send children to the United States has 
actually increased in all three Northern Triangle countries 
since the peak of the crisis last year.
    Thus, the potential for another migration crisis this year 
at the U.S. southern border is real and we must have a secure 
U.S. border and strong relationships with the regional 
governments.
    Today, we have five witnesses from the administration here 
to testify to their proposed whole government approach to the 
$1-billion request and U.S. strategy for the region. According 
to the latest available statistics, the U.S. has provided 
roughly $24 billion in 2012 dollars to El Salvador, Guatemala, 
and Honduras since 1946.
    Yet, the administration's U.S. strategy for Central America 
clearly states that current U.S. and regional efforts to 
address the challenges in the region have been insufficient.
    So I ask, how will $1 billion more achieve different 
results from what we have seen so far? Will this be like Plan 
Colombia, which I fully support, which was originally a 6-year 
strategy but ended up requiring a stronger commitment and 
eventually almost $10 billion from Fiscal Year 2000 to 2014. 
And if so, is the administration strategy planning for that?
    In addition, the U.S. strategy also recognizes that success 
of the strategy depends on Central American governments 
themselves. We have seen some progress on this front with 
several public commitments and El Salvador's adoption of an 
investment stability law, Guatemala's extension of the mandate 
of international commission against impunity in Guatemala, or 
CSIG, and Honduras' cooperation agreement with Transparency 
International to combat corruption.
    However, I believe that we must see more significant 
political will in these countries and greater involvement of 
local civil society, private sector and religious organizations 
in the implementation and monitoring of their Alliance for 
Prosperity plan if they are to achieve accountability and 
lasting sustainable results.
    For instance, all three governments could also take steps 
to require the completion of corruptions tests across the 
entire police force, share with the U.S. their concrete plans 
for addressing judicial reforms including completion of 
homicide investigations and successful prosecution of criminal 
offenders.
    Each sign an agreement with the Transparency International 
to combat corruption, each agreed to work with an independent 
organization similar to CSIG in Guatemala to address the 
impunity and each show a clear prioritization of using their 
own funds to address the communities experiencing the highest 
rate of out migration to the United States.
    So in conclusion, one issue I believe should be raised more 
often by the administration to countries that receive U.S. 
foreign assistance is their voting record with the United 
States and multilateral organizations such as the United 
Nations and OAS.
    Specific to today's hearing, I am concerned that El 
Salvador, Guatemala, and Honduras do not vote with the United 
States at least 50 percent of the time in the United Nations.
    If these countries were going to receive more in U.S. 
taxpayer dollars, shouldn't we ask that they support the United 
States position more frequently in multilateral organizations?
    So with that, I look forward to hearing from the witnesses 
and I will now turn to Ranking Member Albio Sires for his 
opening statement.
    Mr. Sires. Thank you, Mr. Chairman.
    Good afternoon and thank you to our witnesses for being 
here today. This time last year we saw an unprecedented number 
of children fleeing to the U.S. from Central America, in 
particular, the Northern Triangle countries of El Salvador, 
Guatemala, and Honduras.
    The cost in violence fueled by gangs, lack of security, 
weakened institutions, and poverty are creating such a sense of 
desperation that families and young children risk their lives 
on this treacherous journey with the small hope that they may 
be able to escape their realities.
    Congress must ensure that U.S. authorities manage the 
processing and treatment of detained children migrants as 
humanely and transparently as possible, respecting their human 
rights and legal protection--their basic human rights and legal 
protection.
    In turn, the Northern Triangle governments must acknowledge 
the factors driving these mothers and children from embarking 
on this dangerous journey.
    Over the past year, U.S., Mexico, and Northern Triangle 
countries have all put forth effort to deter desperate children 
and families from undertaking such a risk and began crafting 
plans to combat the root causes of migration.
    Messaging campaigns have taken place to inform families of 
the life-threatening dangers involved in the journey and dispel 
any misconception regarding U.S. migration policies.
    Northern Triangle countries have banded together to craft 
the Alliance of Prosperity, their regional approach focusing on 
long-term development in strengthening institution and reducing 
violence.
    Compared to this time last year, the rate of apprehensions 
at the U.S.-Mexico border has dropped. However, according to 
many reports, including the Pew Research Center analysis, this 
drop counts as a result of huge increase in Mexico 
deportation--the increased deportation of Central American 
children traveling alone by 56 percent during the first 5 
months of the fiscal year.
    We must be careful not to consider a drop in U.S. 
apprehension as a drop in migration from the region. 
Furthermore, we must work together to make sure Mexican 
authorities are processing these children with the same respect 
for human rights that we would expect at our borders.
    Reports indicate that migrants are increasingly subject to 
widespread incidence of extortion, kidnapping and other abuses 
committed by both criminal groups and Mexican police officials.
    This crisis has not emerged halfway across the globe. It 
has unfolded at our own doorstep and underscores the need to 
pay attention to our own hemisphere.
    The U.S. should support a regional strategy that will 
increase economic opportunity, strengthen the rule of law, 
improve the integrity and effectiveness of police and security 
forces, and undermine the conditions that give way to gang and 
family-related violence.
    I call upon the region's governments to work with the 
United States and do their parts to find the solution to this 
growing humanitarian crisis, provide a safe environment for 
these children, and address the underpinning of what is 
compelling these young children to abandon their homelands and 
risk their lives to come across to the United States.
    I look forward to hearing from our panelists on how we can 
address this unfortunate crisis and I thank the chairman for 
holding this hearing.
    Mr. Duncan. And I will thank the gentleman. It is an 
unfortunate crisis but we need to remember we are also a 
sovereign nation and we can determine a lot of things about our 
border.
    I would like to just turn to the former chairwoman of the 
full committee and the subcommittee chairman of the Middle East 
and North Africa for a brief opening statement.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Chairman and 
Mr. Sires. Thank you for holding today's important hearing, and 
as you had said, Mr. Chairman, from Fiscal Year 2008 to 2014 
Congress has appropriated over $800 million for the countries 
of Central America but that did not prevent the incredible 
flood of migrants who came to our border last summer.
    So what is different about the President's new proposal of 
$1 billion? I don't believe that throwing money at the problem 
without a comprehensive strategy will help to fix the crisis.
    I have concerns about the capacity of our Embassies in 
Central America to oversee this money and whether the host 
countries can be prepared to receive such a large influx of 
assistance as well. And many of us have been advocating for 
such a long time that the hemisphere needs to be a higher 
priority. But we have got to be careful about how the money is 
spent. The President's Central America strategy is lacking a 
strong security component.
    Drug trafficking in the region continues to undermine 
political stability in the area and we cannot successfully 
strengthen these government institutions and root out 
corruption unless drug trafficking is curtailed and the 
security environment is improved.
    We have had many successful interagency and international 
cooperative operations in the transit zone including Operations 
Martillo and Anvil. But drug interdiction efforts continue to 
be hampered by resource limitations.
    General Kelly has been clear in that SOUTHCOM, our great 
facility down south, lacks the assets and ISR support to really 
help our neighbors in Central America to have a larger security 
impact.
    And even when we do have assets in the region, such as JTF 
Bravo in Honduras, we are not allowed to use these assets for 
security purposes, only for humanitarian missions. That doesn't 
seem to make much sense, Mr. Chairman.
    We should also provide more foreign military financing to 
help build the capacity of security in law enforcement sectors 
in Central America. And these are not new concepts. We have 
done them successfully in Colombia and in Mexico, and they are 
championed success stories.
    So why not imitate these initiatives for all of Central 
America? And as we look at the $1-billion request from the 
administration my concern is less, Mr. Chairman, about the 
amount of money but where the money will be put to use and what 
benchmarks we will use to gauge success.
    And with that, I would like to welcome to our subcommittee 
hearing Captain John Madril of the United States Forces Japan, 
Navy Reserve Headquarters Unit Commanding Officer. So we thank 
you, sir, for your service.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you.
    I will recognize the ranking member for a second.
    Mr. Sires. Mr. Chairman, I see that Congresswoman Norma 
Torres has arrived. I ask unanimous consent that they be 
allowed to participate in this hearing after all committee 
members have had their opportunity to question the witnesses.
    Mr. Duncan. Yes, without objection so ordered.
    The Chair will now recognize Mr. Castro from Texas for 1 
minute.
    Mr. Castro. Thank you, Chairman.
    And first, Chairman, let me say that I was very proud to 
join you and others, many from this subcommittee--Foreign 
Affairs Committee--who represented the United States at the 
Summit of the Americas. I think that you did a wonderful job 
and hopefully we represented our nation well down there.
    I thank all of your for testimony and for being here today, 
and to the administration for putting forward a proposal to 
help the countries in the Northern Triangle do better by their 
children.
    I think each of us convey the message to the Presidents of 
these countries that many of us want to be helpful but, as 
others on this committee have said, we also want to make sure 
that the money is well spent, that it improves the lives of 
these children, and improves society in each of the countries.
    That said, I agree with my colleague, Albio Sires, that as 
we have asked Mexico to be better about making sure that they 
cut off the pipeline of children coming to the United States, 
there is a concern for human rights that comes up.
    Many folks have been cut off from riding what is known as 
the Beast--the train that ultimately leads them on the path 
toward the United States. And so I am going to have to leave a 
little bit early for a meeting at the White House on trade.
    But what I would like to see going back through the 
testimony that you all give is an understanding of how we are 
doing that with a respect for human rights or understanding the 
cost of human life because I have read several accounts now 
that describe the desperation and, quite frankly, the deaths of 
many people who have tried to get through Mexico who have been 
essentially shut off from riding that train and who have 
perished, and whether Mexico and the United States are 
cooperating to make sure that this is done in the most humane 
way possible.
    And so I hope that you all can shed some light on that 
subject. Thank you for being here.
    Mr. Duncan. I thank the gentleman and thank him for his 
participation at the summit--a valuable member of the 
delegation.
    I remind other members that opening statements may be 
submitted for the record and I would like to explain the 
lighting system.
    I am going to give each of you 5 minutes for your opening 
statement. When we get close to 5 minutes if you could just 
recognize the lighting system will go from yellow. At red that 
means cut it off and we will move on.
    We are going to try to stay on time. Votes will be called 
so short of that I am going to go ahead and recognize Mr. 
Hamilton. I am not going to read your bios. They are provided 
for our members in the books.
    And so, Mr. Hamilton, you are recognized for 5 minutes.

  STATEMENT OF MR. SCOTT HAMILTON, CENTRAL AMERICA DIRECTOR, 
 BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Hamilton. Mr. Chairman, Ranking Member Sires, members 
of the committee, thank you very much.
    Mr. Chairman, let me first of all thank you directly for 
your leadership in leading a delegation to Panama at the Summit 
of the Americas.
    I think it was the delegation that met the most Presidents 
in 24 hours that we have ever seen and we appreciate that very, 
very much. And thank you, sir, for the opportunity to testify 
on U.S. strategy for engagement in Central America.
    This strategy, in our judgement, offers a compelling way to 
address the severe challenges facing this region, especially 
the Northern Triangle part of it. It prioritizes physical 
security for a good reason but it also includes governance and 
prosperity objectives because without all three, in our 
judgement, we cannot succeed in a sustainable way.
    It notes that security must be accompanied by what 
businesses call juridical security, or the rule of law. It 
notes the importance of vocational training and jobs, and it 
notes the importance of transparent and accountable government 
institutions.
    It concludes that only in this way together will we be able 
to ensure that the 1.7 million people in this region between 14 
and 25 who do not work and who do not study, and the 6 million 
of them who will enter the job market in the next 10 years will 
do so in their own countries trying to pursue the Honduran 
dream, the Guatemalan dream, and the Salvadoran dream instead 
of coming north.
    And Mr. Chairman, your comments and those of the other 
members indicated you want to know why it is different today--
why are we investing or proposing that we do so. I would 
suggest, sir, that there are four principal reasons.
    The first is that political conditions in the Northern 
Triangle are substantially different today than they have ever 
been. Women and children fleeing a country send a very 
different message than young men fleeing for a right of passage 
to work.
    Women and children fleeing send a message of no confidence 
in the society. When that happened last year, it sent political 
shock waves through the region and was, frankly, humiliating 
for a number of leaders in the Northern Triangle. It is a wake-
up call to them and they understand that.
    Second, those leaders are prepared to be held accountable 
for the first time by external entities. In Honduras, we are 
talking Transparency International in the Office of the High 
Commission of Human Rights from the United Nations.
    We are talking in Guatemala the Commission against 
Impunity, also from the United Nations. In El Salvador, we are 
talking about the Millennium Challenge Corporation and the 
Partnership for Growth.
    These are strong indications for the first time that we 
have seen that they are prepared to be held publically 
accountable not just for what they say but for what they do. 
Going forward, that accountability is absolutely fundamental 
and we strongly endorse it.
    Third, for the first time in a generation, countries which 
are not necessarily always closely aligned have come together 
to prepare a collective plan for the region's development.
    This collective plan, the Alliance for Prosperity, is one 
of the most impressive we have seen in the sense that it is 
combined and collective and represents the commitments and the 
goals of all three countries together. This is unusual and 
worthy of noting and, frankly, we have seen in the Colombia 
context that when a country comes together to take ownership of 
its situation and does not point fingers toward the United 
States, we have an opportunity to make a difference and that is 
what we see today.
    And finally, we have learned ourselves, as an Interagency, 
from experiences we have had in Colombia, Mexico, and Central 
America we know what works. We know how to scale it up and 
scale it out and we know what we need to invest in.
    In fact, we have spent so much time together that Assistant 
Secretary Brownfield almost speaks with a Scottish accent, 
which he will demonstrate, I am sure, when he speaks.
    Mr. Chairman, all investment necessarily involves 
calculated risk. We assess that conditions now exist for 
transformation.
    Our task, of course, is to ensure with you that political 
will is sustained in the region, that civil society is engaged 
and supported, and that the private sector is energized and, of 
course, that our partners are coordinated.
    Our inaction, I would suggest, invites far greater risks 
for the United States. The cost of investing in this region now 
is, frankly, going to pale in comparison with the cost of 
annually addressing migration surges to this country.
    We very much look forward to working with you on this 
committee and in other committees to assess the most effective 
way we can assist the region and protect the security and 
prosperity of the United States.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Hamilton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                         ----------                              

    Mr. Duncan. Thank you, and I will now welcome back to the 
committee Ambassador Brownfield, who was in Colombia when Plan 
Colombia was being implemented. I hope you will touch on the 
successes of that at some point today.
    Ambassador, welcome back. You are recognized for 5 minutes.

  STATEMENT OF THE HONORABLE WILLIAM R. BROWNFIELD, ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Brownfield. Mr. Hamilton, a mild Texas accent is 
sometimes confused for a Scottish accent but they are distinct 
accents.
    Mr. Chairman, Ranking Member Sires, members of the 
subcommittee, thank you for the opportunity to discuss with you 
today our Central America engagement strategy.
    We meet to discuss the future of Central America but we 
filter our thinking through our experience last summer when 
tens of thousands of Central American migrants and children 
arrived at our southwest border.
    We learned then that the solution to the migration crisis 
is not at our border but, rather, in Central America itself and 
the root causes that drive migrants north.
    To address those root causes, we developed a three-prong 
strategy--prosperity, to give Central Americans a stake in 
their own futures; governance, to give them confidence in their 
own governments; and security to protect their families in 
their own communities.
    We do not start this exercise from scratch. Since 2009, my 
INL bureau has provided hundreds of millions of dollars in 
support and assistance through CARSI, the Central America 
Regional Security Initiative.
    Some suggest there is little to show for this effort. I 
respectfully disagree. Operations Martillo and Anvil brought 
drug smuggling by air through Honduras down by as much as 50 
percent since 2012.
    Maritime drug seizures--our best measure of drug flow--fell 
40 percent in Costa Rica and 60 percent in Panama. Seventy-two 
major traffickers now face justice in the United States. The 
homicide rate in Honduras dropped more than 20 percent between 
2011 and 2014.
    Migrant detentions at our southwest border are down as much 
as half from last year, thanks largely to Mexican and Central 
American law enforcement efforts.
    I do not apologize for CARSI, Mr. Chairman. I am proud of 
it. But if CARSI were completely successful we would not be 
here today.
    The President has requested $1 billion for Fiscal Year 2016 
to support this strategy. The INL request is $205 million, 
which is 25 percent more than last year. The committee--the 
subcommittee has a right to ask what more would it see for this 
25 percent.
    First, a new bottom-up and top-down approach. Bottom-up, we 
will support local anti-gang, drug demand, and community 
policing programs that link communities with their own police.
    We will also support national police, prosecutor and 
judicial training, and capacity building programs to reform 
institutions from the top down and we will support specialized 
vetted units and task forces to produce immediate operational 
results.
    Second, we offer a new programming approach that links 
USAID's community programs with INL's model police precincts. 
We call it the place-based strategy.
    Jointly, we identify communities, age groups, security 
threats and root causes, and then design comprehensive 
statistics-driven programs to address them.
    And third, we expand those CARSI programs with a successful 
track record and draw down or modify those without.
    Members of the subcommittee, we knew when we started CARSI 
in 2009 that we were in this for the long haul. We knew we 
would learn from programs that worked well and from others that 
did not.
    We knew we would accomplish only as much as regional 
governments' political will would survive and support. We have 
delivered results. Central America is a better place today and 
the United States is safer due to our efforts. But we surely 
have more to do.
    I look forward to working closely with the subcommittee to 
get it done. Thank you, Mr. Chairman, and I look forward to 
your comments and your questions.
    [The prepared statement of Mr. Brownfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                        ----------                              

    Mr. Duncan. Thank you, Ambassador.
    And the Chair will recognize Ms. Adams-Allen.

     STATEMENT OF MS. PALOMA ADAMS-ALLEN, DEPUTY ASSISTANT 
  ADMINISTRATOR, LATIN AMERICA AND THE CARIBBEAN BUREAU, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Adams-Allen. Thank you. Mr. Chairman, Ranking Member 
Sires and members of the subcommittee, thank you for the 
invitation to testify today.
    I am grateful for your interest in Central America and am 
pleased to have this opportunity to update you on your plans to 
address the underlying causes of the region's migration crisis.
    As you know, social development and economic growth in 
Central America have been stymied in recent years by dramatic 
rise in crime and violence, particularly in the Northern 
Triangle countries of El Salvador, Guatemala, and Honduras, one 
of the consequences being the migration of thousands of 
unaccompanied children to the United States last summer.
    To help Central American governments create an environment 
in which the smallest and most vulnerable citizens can survive 
and thrive, we must effectively address the root causes of this 
migration.
    As Vice President Biden said in January, the cost of 
investing now in a secure and prosperous Central America is 
modest compared with the cost of letting violence and poverty 
fester.
    The administration's Fiscal Year 2016 budget request for 
Central America represents an investment now that we believe 
will save us money later.
    To ensure their investment pays off, the administration 
will implement the U.S. strategy for engagement in Central 
America, a coordinated whole of government effort that takes a 
comprehensive view of the region's challenges and banks on a 
true partnership with the countries of the region, strong host 
country political will, and increased private sector 
investment.
    It directly addresses these root causes by advancing three 
interrelated objectives--improved prosperity, security, and 
governance. With additional funding we intend to spur greater 
prosperity with the North Triangle countries by supporting 
broad-based economic growth and anti-poverty programs.
    Our investments are intended to create jobs; expand the 
business, employment, and educational opportunities available 
to the groups most likely to migrate; and, ultimately, reduce 
poverty in their communities.
    In all three countries, we will invest in clean energy 
programs and trade facilitation measures that promote regional 
integration. Cheaper, more reliable energy will improve the 
competitiveness of the business sector while enhancing energy 
security.
    Reducing the time and cost to move goods across the 
region's borders will make it easier for private businesses to 
capitalize on market opportunities. Expanding economic and 
educational opportunities for the poor is crucial to 
consolidating security.
    The heart of USAID's security work continues to be youth-
focused crime and violence prevention programs designed to keep 
youth safe, provide avenues to better education and job 
training, upgrade community infrastructure, and build trust 
between communities and police.
    We have been testing these approaches, many which have 
proven effective in U.S. cities in the region's most dangerous 
communities. Last fall, a Vanderbilt University impact 
evaluation confirmed that these programs work.
    At the 3-year mark, the final results showed a 51-percent 
decline in reported murders and extortion, a 25-percent 
reduction in reported illegal drug sales, and a 19-percent drop 
in reported burglaries in neighborhoods benefiting from USAID 
programs as compared to the control group.
    With additional resources we will partner with national 
municipal governments to push for the reforms and investments 
needed to scale up and sustain successful programs. We will 
also implement in tandem with State INL a new place-based 
strategy in the region's most dangerous communities with 
marries our youth and community development programs with INL's 
programs to build trusted and accountable police. Ultimately, 
our success will depend on strong and effective governance in 
Central America.
    Prosperity and security gains are only sustainable in an 
environment where democratic values and institutions flourish, 
all people have access to basic social services, impunity is 
reduced, and civil society and the media can play their 
rightful roles.
    With additional resources, we will push for and help the 
countries implement reforms needed to enhance the effectiveness 
of their institutions. New programs will seek to increase their 
transparency and accountability by professionalizing the civil 
service empowering civil society to serve as watchdogs and 
strengthening the institutions charged with administering 
justice.
    To foster greater local revenue generation, we will 
strengthen their tax administration and financial management 
capability. We will only be successful in this endeavor if the 
region's governments commit to making tough reforms. As such, 
we intend to calibrate our assistance in response to real 
reform efforts. We believe it is important to send the message 
at the outset of this process that resources will follow reform 
and not vice versa.
    Mr. Chairman, we believe that the conditions in the region 
are ripe for us to successfully tackle poverty, insecurity, and 
weak governance that compels children to migrate and help our 
partners in Central America create the secure, peaceful, and 
prosperous region we all desire.
    Thank you for your time.
    [The prepared statement of Ms. Adams-Allen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. Thank you so much. I apologize. We got tickled 
during your comments but I want to thank the United States Army 
for stepping in and dispatching a pesky fly that was flying 
around the table down there.
    Mr. Bersin for 5 minutes.

STATEMENT OF THE HONORABLE ALAN D. BERSIN, ASSISTANT SECRETARY 
AND CHIEF DIPLOMATIC OFFICER, OFFICE OF POLICY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Bersin. Mr. Chairman, Mr. Ranking Member, in light of 
the opening statements of my distinguished colleagues, let me 
be brief and summarize.
    As Barry Gordy, the founder and chief owner of Motown 
Records was asked to sit in a university hearing of a Ph.D. 
candidate's thesis and before the candidate could launch into 
an hour-long discussion, Mr. Gordy looked at her and said, ``I 
just need the answer to three questions--what is your 
conclusion, how did you reach it, and why does it matter.''
    So let me try to provide brief summary answers to each of 
those. The causes of the migration surge of the summer of 2014 
are clear. We know the push factors out of the Northern 
Triangle--poverty, violence, educational concerns, the need for 
family reunification, the role of smuggling networks.
    These are not disputed by anyone. Why do we think that this 
time around this investment will yield a different result? The 
fact is that we did not address the pull factors that pulled 
people out of those countries, and Congress was given an 
opportunity to do that and declined to do so.
    We ask that you accept the conclusion that we need to deal 
with the push factors, otherwise we should not expect a 
different result. The reason we can expect a different result 
is that, as my colleagues have indicated, there is a strength 
of will in Central America that has not before existed on which 
we can build on the successes that Ambassador Brownfield has 
outlined that we have seen over the last 5 to 7 years.
    We have administrations there with political will, with a 
plan of their own developed in connection with the Inter-
American Development Bank, the Alliance for Prosperity that 
shows a difference in the domestic context that is new and 
different.
    Equally important, there is a strategy in the United States 
Government that Mr. Hamilton and Mr. Brownfield and Ms. Adams-
Allen have outlined. There is a coherent strategy to address 
security issues and economic development concerns.
    How do we know this? What is the method we use? With regard 
to the push factors there is no dispute. We hear this from the 
migrants themselves. We hear it from the general--the GAO. We 
hear it from the leaders of Central American countries.
    Why do we think that we would see a different result with 
this investment? We see a different result because we have seen 
it happen in Colombia, we have seen it happen in Mexico in 
terms of dealing with the security situation until the economic 
conditions and the economic investments that are there are able 
to take root and we begin to see the push factors diminished.
    What happened in Colombia and what happened in Mexico is 
unique to the circumstances in those countries but the key 
principles of governments' will and the United States 
Government with an assistance strategy that holds together, I 
think, the determining factors.
    The third question of Mr. Gordy--why does it matter. It 
matters because in fact this is an issue that if we do not deal 
with it at the site we will deal with it on our own border. If 
we do not deal with it in the context of the investment that 
has been requested, we will pay three times as much in dealing 
with the consequences of it without affecting at all the 
factors that have led to the crisis in the first place.
    Mr. Chairman, Ranking Member, that is my answer to the 
these questions on behalf of Secretary Johnson.
    [The prepared statement of Mr. Bersin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
                              ----------                              

    Mr. Duncan. Thank you so much.
    Votes have been called so we are going to go ahead and let 
General Tovo have his opening statement and then we will break 
after that.
    General, you are recognized.

STATEMENT OF LIEUTENANT GENERAL KENNETH E. TOVO, USA, MILITARY 
  DEPUTY COMMANDER, U.S. SOUTHERN COMMAND, U.S. DEPARTMENT OF 
                            DEFENSE

    General Tovo. Thank you. Chairman Duncan, Ranking Member 
Sires, distinguished members of the committee, thank you for 
the opportunity to testify here today.
    Instability and insecurity in Central America are a direct 
threat to our national security. The criminality, violence, 
corruption, and weakening of institutions that accompany drug 
trafficking have created an atmosphere of hopelessness.
    We experienced some of the impact of that with last year's 
migration crisis. The illicit pathways that allow the movement 
of drugs, people, weapons, and bulk cash can also provide 
opportunity to those with more nefarious intent.
    Therefore, it is in our nation's interest to help our 
partners in the region develop the capacity to disrupt these 
pathways. I also believe we have an obligation to support our 
partners as they seek to address the root causes of insecurity 
and instability that threaten their nations.
    After all, it is our nation's demand for drugs that at the 
very least has exacerbated Central America's many challenges. 
Combatting these challenges will not be easy. It requires a 
comprehensive and coordinated approach that advances security, 
good governance, and economic development in equal measure. 
This balance is critical.
    Security gains will not be maintained if institutions are 
weak. Migration flows will not be stemmed if economic 
opportunity is non-existent and democracy will not flourish 
when the rule of law is fragile.
    From the SOUTHCOM perspective, we are working closely with 
our partners across the U.S. Government, especially with State, 
INL, DEA, and the Department of Homeland Security, as well as 
our partners in Central America.
    Our goals are to disrupt the flow of illicit trafficking, 
dismantle the networks, and improve border security. Our 
primary focus right now is on the Northern Triangle--countries 
that have been dealing with citizen security crises in recent 
years--and we have seen some remarkable progress there.
    But we shouldn't lose sight of the fact that challenges 
like illicit trafficking, violence, and poverty are regional 
issues--they affect all of Central America. Many countries are 
understandably concerned about the balloon effect that may come 
with improvements in security in the Northern Triangle.
    We need to make sure that the success we have in the 
Northern Triangle doesn't come at the expense of the rest of 
the Caribbean--the rest of Central America or the Caribbean.
    Mr. Chairman, these challenges are significant. It will 
take resources, hard work, and a long-term commitment to see a 
Plan Central America become a reality in the region. The good 
news is that we have a window of opportunity. Our Northern 
Triangle partners have developed their own plan to work 
collectively toward their shared objectives.
    They are investing in their own security and economic 
prosperity. Organizations like the IADB and the Millennium 
Challenge Account Corporation are lending their support.
    In short, we are seeing real political will in the region. 
This is perhaps the most promising sign of all. We only have to 
look to Colombia to see the payoffs that come from a committed 
partner and sustained U.S. engagement. With our support, I am 
optimistic we can see the same sort of turnaround in Central 
America.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Tovo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. General, thank you, and let me just take the 
opportunity on behalf of the committee to thank you for your 
service to the United States military in defense of our great 
nation.
    We are going to pause and recess until after votes. I ask 
the committee members to come back 10 minutes after the 
beginning of the last vote. That will give us 10 minutes to 
vote and come on across after the last vote.
    So with that, we will stand in recess.
    [Recess.]
    Mr. Duncan. We will go ahead and reconvene the hearing and 
I appreciate y'all's patience as we worked through votes. We do 
have some other members coming but I am going to recognize 
myself first for some opening questions.
    First off, I am glad we are getting out ahead of this. In 
anticipation of a repeat from last year at some level I am glad 
we are having this hearing now so that we can start addressing 
some of the issues and I think that opening statements were 
great and provided a lot of information to us.
    One thing that concerns me is how the unaccompanied 
children tax the resources not only of the Federal Government 
with manpower that has to be used to secure the border or deal 
with the number of children and watching over those but also 
the Federal resources, but at the state level.
    We are seeing state resources being taxed as well in Texas 
and the border states. And even right now we are talking about 
relocation of some of these children to interior states like 
South Carolina and others. And so you are going to end up 
seeing those states recognize the taxing of their resources.
    When I was in Panama at the Summit of the Americas, I had a 
chance meeting with President Obama after the opening ceremony, 
and at that meeting he and I had a chance to talk and one of 
the things that we talked about was the fact that I am probably 
one on my side of the aisle that support the financial 
assistance request of $1 billion.
    But I told him and I said, Mr. President, there has got to 
be accountability, and he agreed. He said, absolutely there has 
to be accountability. And I think what we were both talking 
about when we talk about accountability is making sure the 
money gets to where the rubber meets the road--that it is not 
taken off in some amount at the top and with the governments 
there--that it is actually getting to where it is going to be 
the most--do the most good.
    And that is why I think, Ambassador, that the Plan Colombia 
model is a great one when we talk judicial assistance and rule 
of law and addressing confidence in the population in those 
countries with their judicial system and that, you know, they 
are not going to have to pay a bribe to get out of jail, that 
there is actually going to be rule of law enforcement. I think 
that is so important. So I think accountability is important.
    What I would like to address first off is potential 
vulnerabilities with what we are seeing as the Central America-
4 Border Control Agreement originally signed in 2006, but 
implemented between Guatemala and Honduras just recently.
    So open borders--open borders between those countries and 
what that may mean for law enforcement--and so I am going to 
address my first question to General Tovo about--I get open 
border and the free flow of goods and commerce and people among 
those countries, but I think it creates some impediments to law 
enforcement and I want to see how we are--how we are thinking 
about those impediments if you have got those open borders for 
illicit drugs and smuggling of all kinds and what that may or 
may not do to our law enforcement and to our national security.
    So if you could address that and then I may come over to 
another gentleman. But General?
    General Tovo. Mr. Chairman, thank you.
    Certainly, the more open borders the risk is that you can 
ease the flow for all, not just trade and commerce. One of the 
things that we have been doing in conjunction with others on 
the team here, particularly with the Guatemalans and Hondurans, 
is getting them together in what we call IATF's--Interagency 
Task Force--on either side of that border to get them to 
cooperate more closely on intel sharing, procedures and that is 
coming along.
    It is part of the recent agreement between the two 
Presidents that they would have a shared mechanism. So IATF 
Chorti in Guatemala and then a similar JTF across the border in 
Honduras are now doing cooperative security work to open the 
border, yet control the border.
    And so I think while we are at the nascent stages of that, 
I think that is a good sign that they recognize the potential 
vulnerability, they are taking steps to control the border in a 
proper manner, and then, of course, we are supporting their 
efforts through advice and assistance.
    Mr. Duncan. So do you think that potential enemies such as 
ISIS would try to exploit any of that open border across the 
whole Latin America, Central America region to some degree?
    General Tovo. Chairman, I can't speak specifically to ISIS. 
You know, at this point I don't think we have any information 
that says that they specifically want to exploit these 
pathways.
    But it is our position at SOUTHCOM that, given the pathways 
that exist--the illicit pathways that move people, drugs, 
money, guns, et cetera, in multiple directions that it is 
certainly a vulnerability that we ought to figure out how 
address and that we are addressing.
    That is part of what we do with our partners is help them 
develop their capacity to monitor and improve their ability to 
maintain domain awareness and then disrupt the networks with 
appropriate capabilities.
    Mr. Duncan. Right. Okay. While I have got you, a different 
topic. Mr. Bersin, I am coming to you in just a second. But 
General, the 250 Marines that are going to be stationed that I 
have read about, are they going to be under SOCOM's control?
    General Tovo. Under SOUTHCOM.
    Mr. Duncan. In SOUTHCOM?
    General Tovo. They are under the command and control of our 
Marine component MARFORSOUTH and they will working closely with 
JTF Bravo in Honduras.
    Mr. Duncan. How are they going to be used?
    General Tovo. Well, they have got several different 
elements. The ground element is going to be providing training 
to our partners in the region, things such as rivering 
operations, marksmanship, small unit training. The air element 
will provide general support and then the logistics element 
will be doing a series of humanitarian assistance projects--
working with our partners to repair schools and other 
facilities.
    Mr. Duncan. Okay. Thank you.
    Mr. Bersin, let us go back to the open border issue and the 
question is what efforts DHS has taken to mitigate any 
exploitation of Central America's loose border security 
measures and so I would love to hear your take on that.
    Mr. Bersin. Mr. Chairman, the way in which we used to look 
at borders in the past were strictly the lines on the map, the 
lines that separate one country from another and the notion was 
that you do inspections at the line where the sovereignty 
shifts.
    I think what we understand about borders today, and we 
apply in a lot of our actions and we expect the Central 
Americans to do the same in the context of the Guatemalan and 
Honduran agreement, is to secure the flows of goods and people 
that are going back and forth.
    And it is not so much the inspection point at the 
sovereignty line but it is the ability to exchange information 
and, in a layered security fashion, to be able to intercept 
high-risk or malefactors who are crossing.
    So this is not about a free pass but it is about 
recognizing that the Maya Chorti, of example, has a zone from 
20 miles south of the sovereignty line, 20 miles north into 
Guatemala and the idea is to exchange information and 
coordinate, and with the work that DHS is doing with the 
support of INL in Honduras, for example, with the Goetz Group 
which is training border patrol agents, in effect--our border 
patrol agents training Guatemalan border--Honduran border 
patrol agents, we expect to be doing the same in Guatemala, and 
we think that this notion of securing the flow of people and 
the flow of goods in a layered security is going to be as 
effective as having an incomplete inspection point right at the 
line of sovereignty.
    Mr. Duncan. Right, and I appreciate those efforts. I don't 
mean to come across as negative for what Honduras and Guatemala 
are doing. I am exactly opposite of that. I appreciate them 
working together in a bilateral agreement to facilitate trade 
and all that.
    I think that will benefit both countries. Just to follow 
up, though, Mexico has increased their border security on that 
Guatemalan border. Are you all involved in that and how do you 
see that? I think it is effective, from what I have read. How 
do you see it?
    Mr. Bersin. So in effect then, just to carry the point 
further on the Guatemalan-Honduran border using Mexico as an 
example, actually Mexico's efforts on its southern border--
Guatemala's northern border--involves giving a pass to Central 
Americans to go up into the--into Mexico for a certain period 
of time under a border crossing card arrangement. Where there 
is a line drawn and the checkpoint and the security is that the 
Isthmus of Tehuantepec--there are other checkpoints--but at the 
Isthmus of Tehuantepec, the narrow part of Mexico, is where 
people are not being permitted to go further north.
    We have been working very closely with our Mexican 
colleagues in a whole variety of methods with regard to our 
southern border--Mexico's northern border. Many of those 
techniques in terms of technology, in terms of layered 
security, in terms of training and capacity building actually 
have been adopted by the Mexicans in their efforts that have, I 
think, shown great results on the Guatemalan border.
    Mr. Duncan. Right, and I think it has been effective. I 
want to applaud the Mexicans for recognizing that and stepping 
it up. I think the layered approach of Guatemala on their side, 
Mexico on their side to stop it before it ever gets to that 
Texas-U.S. borders is very vital.
    I want to ask the State Department will any of the billion 
dollars for Central America be targeted to addressing this 
issue and preventing exploitation of the loose border security 
measures by bad actors?
    Mr. Hamilton. Thank you, Mr. Chairman.
    We are collaborating very closely in the interagency on 
exactly those questions. We spent about--about 18 months ago we 
started talking about this subject and we determined with DHS, 
with INL, with Justice, with others, how we might seek to 
address border security and also achieve the goals that we set 
for ourselves. And with Mr. Bersin and his team, we are working 
very closely to try to identify exactly what those programs 
will be. So it is very much an integral part of what we are 
doing.
    Mr. Duncan. All right. I appreciate that.
    You know, last year at the peak we witnessed a Guatemalan-
Mexican river crossing. People were paying 80 cents to hop on a 
pallet on top of inner tubes and be paddled across into Mexico 
and there were Guatemalan police that were right there.
    I mean, the videos were very, very clear, and it was less 
than $1. It was a very nominal fee. You saw people exploiting 
that situation to make money but the porousness of that was 
very alarming to folks in my district. And so I hope we--I hope 
we see a very active effort on behalf of--on the part of 
Guatemalans and Hondurans and El Salvadorans and Mexico, which 
I think we are seeing.
    So I am over my time but we are going to come back for a 
second round. I am going to recognize the ranking member.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, I have been on this committee now 9 years and I 
have always been an advocate for this region of the world ever 
since I was not even a congressman.
    But, you know, it is very frustrating to me when people 
come before this committee and they tell me how well things are 
working and what improvement we are making in this part of the 
Western Hemisphere.
    You know, from my view, you know, I look at Venezuela as a 
mess. Brazil is embroiled in probably the biggest corruption 
scandal of history. You have Bolivia, who is acting like a 
rogue nation, and you have Ecuador. Then you have, obviously, 
Nicaragua now--Ortega wants to perpetuate himself. He has found 
capitalism now.
    You know, I look at--we were in Argentina, the former 
chairman and I. I mean, I just don't see, you know, this 
improvement, and I look at Guatemala, El Salvador and I see 
where they have their society problems with these children, and 
to me they look at these children going to America as a 
pressure releasing valve that they have within their own 
country.
    And I really don't know what their full commitment is to 
really stop this. You know, the Presidents ask for $1 billion. 
We are never going to get $1 billion. That is just a figure 
that they threw out there. We will get some, you know--you 
know, an amount that we will get.
    But where are we headed with some of this stuff? I mean, 
Ambassador, I know you have been before me half a dozen times 
and you are always going to say the same thing. But go ahead, 
say it again.
    Mr. Brownfield. I would never, ever argue or disagree with 
the distinguished gentleman from New Jersey. May I--may I--may 
I start by agreeing with you and actually laying out my own 
personal experience?
    Mr. Sires. I guess I am frustrated. That is my----
    Mr. Brownfield. I am with you, and let me share that 
frustration at the start and then give you some more positive 
stuff at the end.
    I am one of the most kind of experienced Latin America 
hands, I guess, that has ever had the job that I currently hold 
as assistant secretary for INL.
    I came in actually committed big time to plussing up what 
we were doing because when I arrived in this job less than 25 
percent of my entire budget was focussed on Latin America.
    That was a function of Iraq and Afghanistan but it was also 
a function of concentration elsewhere. To my intense 
frustration, I spent much of my first 2 years shutting down INL 
sections.
    I shut down the INL section in Bolivia. I shut down the INL 
section in Ecuador. I shut down small INL programs in 
Argentina, Brazil, Paraguay, and Uruguay. Venezuela we had shut 
down even before I got to the job, for rather obvious reasons.
    I was quite frustrated. I was then and I am now. In South 
America I have exactly two INL sections in place--Peru and 
Colombia.
    So I start with the same frustration you had, which is to 
say due to circumstances that, in my opinion, were beyond any 
of our controls, we did not have these programs.
    Central America I did say to you, and I said it somewhat 
defensively but I do say it again, CARSI has not solved all 
these problems but I do emphatically assert that both Paloma 
from the USAID side and me from the INL side have spent 5 years 
putting infrastructure in place.
    We have got people on the ground now that can actually do 
these programs, learning lessons between stupid programs that 
obviously did not work and programs that did work, and figuring 
how we can go from here.
    And finally, reminding everyone--and you hear it from me 
every time I come and appear before this committee--we have got 
to think long term. This is not a problem--a problem that has 
been created over decades is not going to be solved in a matter 
of days.
    But let me go back to the chairman's question. For example, 
border stuff--what are we doing on border stuff? First, don't 
forget that on the other side of Central America is Mexico.
    This year I am going to put $90 million of INL programs 
into the Mexican southern border. Now, is this going to have an 
impact on Central America? Of course, it is going to have an 
impact on Central America for all the reasons that Mr. Bersin 
just laid out.
    Second, we are supporting these joint interagency task 
forces, police and military, that are to work the borders 
themselves. They are tied into the open border concept, Ranking 
Member and Mr. Chairman, the theory being if you open the 
border basically for the regular crossing points people will no 
longer--who are doing legitimate business will no longer avoid 
the highways because they will move more rapidly along the 
regular places and the criminals will be the ones who are 
trying to cross at the non-authorized crossing points for which 
you have the Joint Interagency Task Forces to identify and grab 
them.
    Will it work? I guess I would say it cannot possibly work 
any worse than we have had for the last 5 years. Sorry, Dr. 
Sires, I got carried away.
    Mr. Sires. Well, thank you for making me a doctor. I didn't 
realize that. You know, I think part of all this refocus on the 
Western Hemisphere--last year was a wake-up call but also, I 
think, China is scaring a lot of people in this country with 
the influence that they are having in all these countries. So 
all of a sudden we have to refocus on the Western Hemisphere. 
And I am looking for signs that there really is a commitment by 
these countries that they are going to do what they need to do 
to stop this flow of people coming over because, really, at the 
end of this those children are the ones that suffer.
    I mean, they are abused. They get taken advantage of and, 
you know, just from the humanitarian point of view somebody has 
got to make a real commitment.
    If we are going to give them money--and I would like to see 
some money go there--but I also like to see transparency. You 
know, I think those days where we just gave them money and 
forgot about it are over.
    So Mr. Hamilton, can you talk a little bit about that?
    Mr. Hamilton. Certainly. Thank you, Mr. Sires.
    Two things I would say about. First, last summer when the 
unaccompanied children started to arrive, the countries took it 
very seriously. Their public commitment was matched by their 
actions and the numbers slowed down significantly.
    They also took the very difficult political decisions for 
them to take back flights of women and children in addition to 
the, in the last fiscal year, over 100,000 young men who were 
deported from the United States to those three countries.
    So this was a challenging time for them but they did it. 
They did what we asked, and they did it for their own reasons 
because those kids belong in those countries and they 
understand that.
    In November, following up on that type of decision, they 
worked with the Inter-American Development Bank to create a 
plan that essentially said to the rest of us we own this 
problem--it is our problem and we want to address it with your 
assistance. That, again, is new and worthy of attention and 
respect.
    And third, in March of this year they came up with an 
elaboration of the plan which is very, very programmatic and 
very strong clear detailed goals and commitments that they have 
entered into.
    Now, what are those commitments that they have achieved so 
far? In Honduras, where we have seen significant action, they 
have invited in Transparency International, and those of you 
who know that entity know that it is not an entity easily 
bullied by politicians.
    It is independent, it is credible and very serious and they 
are going to be auditing the countries' government departments. 
That is something that is creative and new and worthy, I think, 
of attention and respect.
    They increased their tax revenues by 21 percent in the past 
year in part by being more efficient and trying to invest in 
their own society, knowing very well that that is the only way 
they can make genuine progress.
    They negotiated a new agreement with International Monetary 
Fund in order to get their budget house in order so they can do 
this over the long term as well--again, quite serious.
    Only a few days ago, they passed a new law to protect human 
rights defenders and journalists, something that has been a 
continuing concern in Honduras for some time. And as Secretary 
Bersin said, they have inaugurated the two task forces on the 
border that we consider to be very serious and effective.
    So in general, Honduras has done a lot. They even invited 
in the Office of the High Commission for Human Rights--again, 
an organization that is independent in every respect and will 
help them achieve progress in that area, too.
    Guatemala's decision a few days ago to renew the mandate of 
the Commission Against Impunity was absolutely fundamental to 
that country's future.
    Without an independent investigative body like that, 
without the ability to investigate, indict, arrest, and 
hopefully allow the system to convict bad actors, the country 
simply cannot progress.
    And only a week ago they indicted 22 members of the tax 
administration who had committed fraud, one of whom is a 
fugitive--the personal secretary of the Vice President, in 
fact. Again, a very serious effort by the CSIG entity to move 
forward on correcting impunity in that country.
    Guatemala also has extradited to the United States over ten 
major criminals in the past year, Honduras over seven--taking, 
again, very seriously their obligation.
    In El Salvador, they have launched an anti-extortion task 
force designed to crack down on gangs who are intimidating 
young small-business owners. They also passed a law to ensure 
that legal stability of investments.
    So a number of things have happened in the past 12 months 
that represent, in our judgment collectively, a serious effort 
to address these impunity and accountability issues that you 
quite properly raise and we will absolutely intend to ensure 
that they follow through on those and many other commitments 
that they have made.
    Mr. Sires. Is Salvador the biggest recipient of money from 
us with the Millennium Challenge money and everything?
    Mr. Hamilton. I think if you add the Millennium Challenge 
account it is very close. But Guatemala also receives 
significant Feed the Future assistance from USAID. But I think 
Paloma might know more than I do about that.
    Ms. Adams-Allen. Am I on? Yes.
    Yes, Guatemala receives significant assistance from us for 
their food security and agricultural development efforts in the 
western----
    Mr. Sires. And they have been receiving this money prior to 
the children coming across?
    Ms. Adams-Allen. Yes. They have been for about 3 years now 
and we are seeing----
    Mr. Sires. And El Salvador also?
    Ms. Adams-Allen [continuing]. We are seeing great results 
with it.
    Mr. Sires. We are seeing great results? I mean----
    Ms. Adams-Allen. Yes, we are seeing the results in the 
western highlands in linking farmers to markets, moving people 
out of extreme poverty, getting nutrition intervention to youth 
under five. These are the big pieces that we have seen in the 
western highlands of Guatemala.
    We would like to and are working with the government to 
expand those investments through their Pacto Hambre--their 
national food security plan.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Duncan. Yes, I thank the gentleman.
    I want to go now to the chairman of the Asia Pacific 
Subcommittee, former chairman of this committee, someone who 
followed this issue, worked very diligently on it last year and 
I commend him for that--Mr. Salmon from Arizona.
    Mr. Salmon. Well, thank you, and first of all, Mr. 
Chairman, thanks for holding this incredibly important hearing.
    I am very apologetic that I wasn't here for the testimony, 
but I am chairing an Asia Pacific Subcommittee on Bangladesh on 
an upper floor and somebody is relieving me because this issue 
is so important to me.
    I wanted to come and be able to ask some questions. I do 
want to make a couple of observations both about the hearing 
and the subcommittee.
    First observation is I have a really hard time masking my 
affinity for Ambassador Brownfield. I wish there were 1,000 
like you. I think that this country would be in a lot better 
shape.
    Mr. Brownfield. My wife disagrees intensely with that 
statement, Mr. Chairman.
    Mr. Salmon. I might be able to talk her into something. And 
then my other observation is that if every subcommittee in this 
Congress had a ranking member like Mr. Sires, who is so darn 
cooperative to work for and just cares about doing the right 
thing, we would solve a lot of problems in this country. And I 
really appreciate--I really--you are just a gem to work with 
and mean that.
    Mr. Duncan. I second that, by the way.
    Mr. Salmon. Yes. So my question would be to Mr. Bersin, and 
because I spoke so fondly of one of your members doesn't mean I 
don't like the rest of you. I just really have such a strong 
affinity for Ambassador Brownfield and I think he knows that.
    But to date, Mr. Bersin, how many individuals, both adults 
and children, have been brought to the U.S. under the new in-
country refugee/parole processing program? That is my first 
question. How are they arriving in the U.S. is my second 
question.
    Third, once in the U.S., how many of the program 
participants are minors and how many are adults? And if you 
don't have any of those answers you can get them to me. I would 
really appreciate it.
    Fourth, how many of the--well, why don't you start with 
that because I have some other questions I would like to follow 
on with that.
    Mr. Bersin. After observing that I am in accord with your 
assessment of Brownfield--to know him is to love him--I will--
--
    Mr. Salmon. You just rose in my estimation so that is good.
    Mr. Bersin [continuing]. To answer your question, which is 
that in fact none to date have been admitted to the United 
States because the applications--approximately 500 have been 
received, but the interviews with regard to in-country 
processing of refugees status has not begun.
    Mr. Salmon. Okay. Then my--so we really don't have any that 
have qualified under the terms of this new--or this 
arrangement, this agreement?
    Mr. Bersin. To date, that is correct, sir.
    Mr. Salmon. How--but they are actually coming to the 
States, we are understanding. How are they getting here?
    Mr. Bersin. There is a--there is a--as you know, there is a 
refugee admissions process that covers the entire world----
    Mr. Salmon. Right.
    Mr. Bersin [continuing]. And there are protocols that 
pertain to how refugees are brought to the United States after 
it has been ascertained that they are refugees.
    Mr. Salmon. Right.
    Mr. Bersin. That has not yet applied in the Central 
American context.
    Mr. Salmon. What do we know about the applicants? Or do we 
have any information?
    Mr. Bersin. I know, sir, there are 500 of them. I have not 
looked at any of the files.
    Mr. Salmon. You don't know a breakdown yet of whether they 
are adults or children?
    Mr. Bersin. That is--I will get--if you leave the record 
open we will supply that.
    Mr. Salmon. That would be very helpful, and how many have, 
you know, applied for parole status. Here is my next question. 
Out of that 500 that we know of, how many of the individuals 
who applied on behalf of their relative for refugee or parolee 
status are in the U.S. on a deferred action?
    That would be my next question. Can an applicant here in 
the U.S. petition to bring in a parent or another relative 
under the program? Let us say that they are granted asylum 
status or parolee status.
    Can they apply then for chain migration? Can they bring a 
parent? Can they bring another relative, and if--do we know 
whether they have done that yet? Do you know anything about 
that?
    Mr. Bersin. So with regard to the latter case, I can state, 
consistent with previous responses, that it has not yet begun. 
Therefore, you would not have those results.
    With regard to the two questions on legal eligibility, we 
will provide that. I, myself, am not an expert on the refugee--
--
    Mr. Salmon. Okay. I would just like to know if they are 
here under deferred status whether they can then be the sponsor 
or whether--yes.
    Mr. Bersin. I understand the inquiry.
    Mr. Salmon. Okay. And then are any of those who are 
applying on behalf of the relative in the U.S. under deferred 
action as put in place by the President's November 2014 
action--that is my other question.
    One other question that I have is more in regards to I 
witnessed what you talked about. I was with General Kelly about 
a year ago on the Guatemala-Mexican border. I personally 
witnessed those people coming over on those barges or rafts or 
whatever you want to call them.
    I saw it happening. I saw the law enforcement people 
turning the other way, not doing anything about it, and I would 
note that one of my perceptions about this whole diminishment 
this year--the numbers have gone dramatically down of those who 
have come to the border, surrendered themselves, both 
unaccompanied minors as well as accompanied minors--but I think 
a lot of that is in part to Mexico's stepped up participation. 
They are interdicting either at the Mexican border or in 
Mexico.
    And, I mean, it is not that we are catching these people. 
At least, that is my understanding, because many of them are 
surrendering. It is not like we are apprehending them. They get 
to the border and they surrender themselves and so I don't know 
that we have really stepped up anything, have we?
    Mr. Bersin. So, first, with regard to the situation and all 
of us--many of us have seen the situation on the Mexican-
Guatemalan border on the river--let me--if I can put that in 
context.
    Until 2 years ago, there was absolutely nothing going on on 
the U.S.-Guatemalan border. Zero. So what you are seeing is 
actually not so much--there are cases where people are crossing 
with the intention of going to the United States. But actually 
most of the activity there is the intercommunity border 
economic activity that goes back and forth. The difference is 
that that is not where Guatemalans or Hondurans or Salvadorans 
are being stopped anyway by the Mexicans. They are being 
stopped further up----
    Mr. Salmon. Right.
    Mr. Bersin [continuing]. Into Mexico.
    Mr. Salmon. Into Mexico.
    Mr. Bersin. And what we see in terms of the ziplines and 
tubes is actually a intra----
    Mr. Salmon. Commerce.
    Mr. Bersin. It is a commerce. It is a commercial 
relationship that has existed for decades and decades. But that 
isn't what is leading to the change you notice, which is the 
enforcement effort ten miles, 20 miles and then 50 miles----
    Mr. Salmon. By the Mexico--yes.
    Mr. Bersin [continuing]. By Mexico and there is significant 
activity going on.
    Mr. Salmon. They are doing an amazing job. I think they 
have really stepped it up. As to, you know, what we are doing 
on our borders I think that when they come and they claim 
credible fear or whatever, you know, the line de jour is that 
they are then brought into the country and taken through the 
process.
    So I don't know that we are doing anything to thwart it. I 
know we did some public service announcements and things like 
that in country about how difficult the journey is and how 
dangerous it is and those kinds of things.
    But, ultimately, one of my hopes and desires was that, you 
know, we would get them back in country as quickly as possible 
to show that that $5,000 or $8,000 they paid to the coyotes was 
wasted money and that you do it again it is going to be wasted 
money.
    Mr. Bersin. Congressman, again, you know, with all due 
respect, that was the point of the request for the 
appropriations to deal with the pull factors. Until we have an 
enforcement mechanism and an immigration court that is properly 
resourced here, we will not see the turnaround that you 
suggest.
    When there is the ability to do so, we are actually 
returning people in short order. But as you note, when you 
claim asylum there is a process which our country has 
recognized and I think we should be proud that it does 
recognize it.
    But we don't have the ability to actually conduct that 
process with the--with the speed and rapidity that a properly 
resourced immigration court would permit us to do.
    Mr. Salmon. The asylum statues are valid. I mean, they 
are--I think asylum is a worthy policy for legitimate folks 
that qualify for asylum.
    I think there are a lot of people that are maybe not so 
honest about why they are really crossing the border, and they 
have figured out that by claiming that your chances are a lot 
better.
    But with the Mexican minors we had a lot more flexibility 
in the past than we do with Central American kids because of 
legislation, and our hope was to try to streamline that process 
through a series of questioning that maybe some of these 
adjudication processes might be averted. And is that happening 
or can it not?
    Mr. Bersin. So with regard to the Guatemalan, Honduran, 
Salvadoran councils, on those cases where we can get 
cooperation, get travel documents----
    Mr. Salmon. Where they will voluntarily deport, they can 
still do that?
    Mr. Bersin [continuing]. That is actually--yes, yes, and we 
are getting significant cooperation from the Northern Triangle 
countries with their in U.S. country-based personnel.
    But again, sir, the problem is we respect the asylum 
process as you do and--but there is not adequate machinery to 
make this function in a way that gets rapid hearings which 
would permit them a disposition of the case, one way or the 
other, and then a return to the country of origin for those who 
don't qualify for asylum.
    The problem is that decision is not being made in real 
time.
    Mr. Salmon. I just--my final comment, Mr. Chairman, but we 
passed a bill--we in the House passed a bill last summer that 
would have addressed this and would have sped up the asylum 
process and would have provided judges and courts, and Senate 
never took it up.
    Mr. Duncan. It is time to pass it again and I thank the 
gentleman for his efforts on this. And perception is reality.
    We talked about the rafts and people being across, but the 
fact is people in New Jersey and people in South Carolina saw 
that newscast or saw that YouTube video or whatever it was--saw 
the Guatemalan law enforcement standing right there, saw the 
interview with the people that were actually trying to migrate 
to this country weren't just normal commerce across that river, 
and they believe that is the reality there--that law 
enforcement is looking the other way.
    Guatemala can change that perception and ultimately change 
the reality in the minds of the American people, who are 
looking at the request for an extra billion dollars to be 
spent. And so we have got to change that perception in order to 
justify that expenditure to our constituents.
    So with that, I will yield to the gentlelady from 
California, Ms. Torres, who has joined our committee for the 
day. Thank you.
    Ms. Torres. Thank you so much, Mr. Chairman and Ranking 
Member, and also to the rest of the committee members for 
giving me an opportunity to participate.
    I absolutely agree that we must do everything that we can 
to stabilize Central America. I think it is a critical partner 
for the Americas and for our country.
    I do want to commend you, Mr. Hamilton, your comments and 
what you said earlier regarding the outreach that has been made 
to the Northern Triangle countries about the difficulties and 
the dangers of travelling to the U.S.
    I was--had the opportunity to travel to El Salvador and 
Honduras recently. Spoke to civil society groups and many, 
many, many youth groups.
    What they said was that they got the message that it is 
very dangerous and that the effort for the U.S. to provide that 
community outreach to them about the dangers that they are 
facing walking 1,000 miles to the U.S. is real.
    I wonder if you know anything about the--what appear to me 
that it was somewhat a coordinated effort of two for one 
smugglers.
    That was what they were offering last year, and I recognize 
that it was a political year--an election year. But the fact 
that, you know, they were sort of going out there and pushing 
people to come to the U.S. seems almost surreal to me.
    I want to ask three specific questions. I know I have 
limited time. Number one, you said that the Northern Triangle 
countries are prepared and want to see change. I saw--I saw 
that in El Salvador. They are working with civil society 
groups. I did not quite see that in Honduras.
    I wonder will this money, this aid--will it include 
technical assistance to ensure that there is transparency on 
how this money is going to be spent, that my community is going 
to be able to go on some website and be able to see where our 
tax dollars are going, who is receiving them and how are they 
being--are they being effectively directed to where it is 
needed.
    The other thing is what are your views on establishing 
CSIG-like commissions in El Salvador and in Honduras and how 
much of or what percentage of law enforcement funding will be 
directed to support institutional reforms?
    We heard it over and over and over again in these two 
countries--corruption within the ranks of the police 
department, corruption within the ranks of the military. They 
are not trustworthy organizations.
    The community can't go to them to report a crime. 
Oftentimes, they are victims of these two organizations. And, 
frankly, they are starving their police forces. You have to 
look at their wages and their salaries and you have to bring 
them to par with the rest of the Central American communities.
    And lastly, it alarms me that 500 people have requested an 
asylum and we have not been able to process those applications.
    I would like to see, you know, what process do we have, or 
should we be investing some of this money in ensuring that 
these three countries have some type of victim assistance 
programs and relocation within their countries?
    Mr. Hamilton. Thank you, Congressman Torres. Excellent 
questions, and we agree, of course, completely with you that 
criminal smuggling networks should not be allowed to determine 
the immigration policy of the United States, and we were very 
active in seeking to make sure that did not happen last year 
and will not happen in the future.
    With respect to your question on transparency and 
accountability, we could not agree more. If we do not ensure 
accountability and transparency and, frankly, crack down on 
impunity, we will never succeed in the region.
    We know that. The strategy is designed exactly around those 
principal factors. We are trying to ensure that all of the 
principal government institutions--the tax system, the justice 
sector, the public procurement departments--are transparent and 
accountable in every way.
    The governments themselves have committed to do that and, 
as I mentioned earlier, have brought in external actors to 
assess and to monitor themselves. That is, frankly, quite 
unusual and suggests to us that they are serious.
    They can't hide from those institutions. They can perhaps 
pull the wool over people's eyes in past administrations by 
doing it themselves, but outside actors are unlikely to allow 
that to happen. So we are quite confident they are serious and 
we intend to move forward on that.
    We have a very, very serious monitoring and evaluation 
program built into what we propose here, three different 
levels. One is a political level--the political requests or 
asks that we will make of those governments and they have 
publically committed to any March 3rd statement or jointly 
authored with the Vice President of the United States.
    Second, there is a programmatic evaluation effort, which 
will be U.S. programs--how we seek to achieve certain goals and 
how we measure benchmarks along the way.
    And third will be national level trajectory benchmarks--
how, with a lag over time, do we see success. Those benchmarks 
will be shared and discussed with the Members of Congress on a 
regular basis because that is the only way we can move forward 
together--by being open and transparent and honest about this 
process.
    With respect to CSIG in Guatemala, we are very strong 
supporters of it, as you know. We would very much welcome 
consideration by other countries of a similar entity in their 
societies.
    CSIG succeeds because it is independent. It is not 
susceptible to manipulation by anyone, and to the extent that 
Guatemala can help persuade Salvador and Honduras that these 
are valuable interventions we would very much support them in 
doing so.
    Institutional reforms in the police and military are 
critical. Ambassador Brownfield will talk about that in more 
detail. But fundamentally, we agree completely with you that 
police forces have been under resourced and misused for a long 
period of time and all three governments are committed to 
changing those processes.
    In Honduras, in particular, they propose to train and hire 
6,000 new police officers in the next 3 years precisely in 
order to create a credible police force that people do not 
fear, and that can then replace the current military police who 
are patrolling the streets in the absence of a credible 
national police force. So we very strongly agree with you on 
all of those factors.
    Mr. Brownfield. And Congresswoman, let me flesh out in 
detail a little bit in terms of police institutional reform in 
terms of how we are trying to attack this problems set.
    Because you are, obviously, absolutely correct--that until 
the law enforcement institutions are in fact reformed, 
purified, improved they will never be able to perform the 
function that we are--that we are asking as their commitment to 
this Central America strategy.
    As I said during my opening statement, we have a bottom-up 
and a top-down approach. Bottom-up, in a sense, means linking 
the communities with their local law enforcement. But that is 
not reform per se. Top-down is exactly that and that is what we 
can do to professionalize and reform the law enforcement 
community.
    In no particular order, we are supporting, and in fact 
providing, a great deal of assistance monitoring and 
participation into police academies and police training in each 
of the three Northern Triangle countries, in addition to a 
regional police academy that we are operating and working in 
Panama for the entire region.
    Second, we are establishing--trying to establish, 
encouraging them to establish with us an IAD--internal affairs 
division or inspector general sort of office or function in 
each of the police communities.
    In other words, duh, somebody who will police the police. 
Until you have that, you know that you will not be able to 
control the problem within the institution.
    Third, we are working with the three governments in terms 
of establishing and passing the legislation--the statutory 
basis that allows the removal of individuals legally for 
abusive or corrupt behavior.
    Fourth, we are working in what in Mexico we have come to 
call los controles de confianza, which is to say the system, 
the structure, by which you can vet and remove, at least if not 
from the entire institution from individual units, those people 
who for whatever reason are found to have been penetrated or 
corrupted.
    And finally, as our requirement from each of the three 
governments, we will insist that they themselves meet salary--
minimum salary requirements.
    You know as well as I do that a big part of the problem is 
if a police officer is paid so little that he or she cannot 
support his or her family, that police officer will supplement 
the income in other ways and that becomes part of the problem.
    Ms. Torres. Can I--can I ask a follow-up on that? Can you 
go more into detail as to what are those requirements, and does 
that include background checks on the current officers that are 
there?
    Mr. Brownfield. That is where we are headed. But I am going 
to break this out into--briefly, Mr. Chairman, into a couple of 
different areas.
    One is for specific units, what we call the vetted units 
that are designed to do specific functions. They are intensely 
vetted and when I say background checks I mean not only do 
they--is there an assessment of where they are from and what 
has been their track record while in the police, but also they 
are then polygraphed on a systematic basis and asked, quite 
frankly and bluntly, have you engage in activity that is 
corrupt or illegal and the polygraph will produce an outcome.
    Obviously, that is a time-intensive approach that cannot be 
applied to the entire police force and, quite frankly, in many 
countries part of the statutory or legal problem you cannot 
compel a police officer to submit to a polygraph.
    You can say you may not join this particular unit if you do 
not agree to a polygraph--you will not receive the salary 
stipend and the additional equipment. That you can do but you 
cannot necessarily compel them to do polygraphing.
    So on a more nationwide and national basis, the principle 
of vetting, which has been worked through, by the way, both in 
the Plan Colombia experience in Colombia and the--and the 
Merida Initiative experience in Mexico is to have an office and 
professionals who will do basic vetting--where did the human 
come from, talk to the community in terms of what he or she has 
done in the past, go through the actual personnel and official 
records of those individuals after they have joined the police 
force, and, to the extent that there is something there that 
does not work, you have the extreme option to separate them 
from the police force.
    A less extreme option: Move them into other areas in the 
police that do not necessarily make them as attractive to those 
who wish to purchase their services because they are not in an 
area where they can influence. In other words, put them in some 
place where they are not in direct engagement with the 
community.
    Mr. Duncan. I thank the gentlelady. Her time is expired. 
And the Chair will now recognize the gentleman from Florida, 
Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, panelists, 
for being here.
    Lieutenant General Tovo, I appreciate the service to your 
country and everything you guys are doing in the Southern 
Command.
    I know people personally that are in the Coast Guard in the 
south Florida area and I hear stories of what they go through 
and I commend you for what you guys are doing.
    And I hear a resounding theme over and over again from 
everybody that has been up there--talking about the corruption 
in countries in Central and South America, and I think 
sometimes we can maybe even look at our own Government--not to 
point fingers at anybody without pointing at us.
    Saying that, with so much corruption in Latin American 
governments and the police forces, what is your recommendation 
in working effectively through the corruption in order to get 
the results we want? Because what I am hearing from you, 
Ambassador Brownfield, is that we need to ask for a minimum pay 
for the police officers in their country.
    But I am looking here in El Salvador, Guatemala, and 
Honduras that we have given--not we, the American taxpayers, 
has given the equivalent of $23.6 billion--$23.6 billion and we 
have to tell them how much to pay their police officer?
    What in the heck have we been doing since 1946, and why do 
not the governments of those countries want the desire to fix 
that problem? And again, I shared this story--my mom wanted me 
to play the piano. I didn't want to play the piano and I sat 
down there to take lessons, and I still don't know how to play 
the piano.
    At what point and what do you do to make them want to do 
that or we walk away and get stronger on our border security? 
And I want to talk to all of you about border security.
    I would just like to hear what else do we need to do to get 
the message across that we are not playing?
    Mr. Brownfield. Let me start with that, Congressman.
    Mr. Yoho. And I apologize for my tone. I am generally calm.
    Mr. Brownfield. Not to worry. There is nothing that excites 
me more than an appropriately warm conversation. First, I would 
suggest to you that we are--as I have said a couple of times 
before, we are dealing with an issue that is now embedded in 
culture, society and----
    Mr. Yoho. Exactly.
    Mr. Brownfield [continuing]. Communities for decades. We 
are not talking about a problem that started last year or the 
year before last. We are talking about a situation that has 
endured probably for more than 100 years.
    Mr. Yoho. Let me interject here, because since 1971 when 
the infamous War on Drugs was announced by President Nixon we 
have spent about $2 trillion, again, of the American taxpayers' 
money. I want results. You know, I want--go ahead.
    Mr. Brownfield. And I will--I will suggest to you two quick 
thoughts and then I will let other jump into this as well. You 
are absolutely correct that if we cannot get something as 
fundamental agreed to by governments such as paying a basic 
salary that is sufficient so that the individual member of the 
police does not need to go into corruption and accept bribes in 
order to survive, then we should not be walking down this road 
for enhanced expenditures.
    Mr. Yoho. I agree.
    Mr. Brownfield. But what I believe this means is this is 
one of the--I won't even call it an ask--one of the 
requirements that we will impose before we would expect you 
all, the United States Congress, to respond positively to a 
substantially enhanced or increased support for Central 
America.
    That is a given. And by the way, I have heard this from 
several other people as well. It is an absolutely fair point.
    That said, ladies and gentlemen, may I suggest to you as 
well that we are dealing with the following situation. We have 
a world that we want to get to and we call can define that. 
Call it nirvana, call it whatever you wish. We know, roughly, 
what we want in Central America.
    We have the world that we currently live in, which is 
today's world on the 30th of April, 2015. Our challenge--mine 
from the executive branch, yours from the legislative branch--
is to figure what we can do, what programs, what resources, 
what policies, what strategies that will deal with the world in 
which we currently are that will move us into the direction of 
the world that we want.
    Because if you are telling me we should not do any of this 
until we have reached that more perfect world, I am afraid you 
are condemning us to get nothing accomplished.
    Mr. Yoho. Well, you know, saying that I am going to revert 
to a story my daughter told me when she wanted to go jogging. 
She was 10 years old and I wanted to jog with her. We got up at 
6 o'clock--well, she got up at 6 o'clock and I didn't.
    And after about 5 days of she had to come and wake me up 
she went out on her own one day. And I said, Katie, how come 
you didn't wake me up. She said, Dad, if you really wanted to 
jog you would have been ready.
    And I think it is the same thing--that philosophy--and I 
would like for us to be who we are as a country to go to those 
countries and say, if you really want our help you will do 
these things.
    And then I don't know at what point you walk away and, 
certainly, we don't want to walk away and leave a vacuum 
because when you leave a vacuum somebody will fill that.
    I want to switch over to the Southern Command. With our--
the announcement of the policy change December 2014 with our 
policies toward Cuba, have you seen a ramp-up of illegal 
immigration in the Caribbean Basin when we said we were going 
to relax our Cuban policy?
    General Tovo. Congressman, I would prefer to hand that one 
over to Secretary Bersin. I think they track the actual 
numbers, I believe, on----
    Mr. Yoho. All right. That will be fine. And again, I wanted 
to ask you, I know you guys need more cutters and fast response 
boats, right?
    General Tovo. We could certainly put more resources----
    Mr. Yoho. About 17 of them, I think, was what I read.
    Mr. Bersin. You are referring to assets of the Coast Guard 
in the Caribbean?
    Mr. Yoho. Right, but I want to know about the increase in 
immigration--illegal immigration in the Caribbean Basin since 
President Obama and this administration relaxed--the narrative 
of relaxing policies to Cuba.
    Mr. Bersin. With respect to migration from Cuba, we have 
seen an increase. I am not in a position but will supply the 
actual number in terms of Cuban migrants leaving Cuba on their 
way to Ecuador and to places in South America.
    What we have seen in terms of the Caribbean itself is, 
since we have the same policy in effect, we will return those 
that are encountered at sea and, as you know, not do so with 
those who make it to land.
    I cannot give you the specific number that have been 
encountered since December but we will----
    Mr. Yoho. I will help you out here, because I checked, and 
the increase is 265 percent from December 2014 to the middle of 
March, and that was tracked through the U.S. Coast Guard and 
the people I talked to up here.
    Mr. Bersin. The absolute number would also be of help, 
Congressman, in that respect, because I recognize two and a 
half times is great but the number, as you know, had fallen to 
historically low numbers in the preceding years. So I think it 
would be helpful to get the----
    Mr. Yoho. But we saw an uptick is from what I saw. Let me 
move on. Do I have more time, Mr. Chairman? Yes.
    Mr. Bersin, I read a report that said--stated America is 
known around the world as a country with a global immigration 
policy of unenforcement. Do you feel this is accurate?
    Mr. Bersin. No, sir.
    Mr. Yoho. All right. The report went on to say that if you 
get to the Southwest border or any border you get in, and if 
you get in you might get picked up but they are not going to 
deport you and that you can--the narrative is that you get--
that you may get a work permit, you will get free education, 
free food, and we are seeing that with the people I have talked 
to.
    Mr. Bersin. No, sir. If you apply for asylum and you are 
given asylum, then you get those benefits. But you do not walk 
up to the border and have the right to enter legally and work 
in the United States. No, sir.
    Mr. Yoho. With the President's policy--his policy of the 
executive amnesty, I will reserve my question and will submit 
it to you. I yield back, Mr. Chairman.
    Mr. Duncan. I thank the gentleman. I now recognize the 
other gentleman from Florida, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman. I have been bouncing 
around in different hearings so I apologize for not being able 
to hear your answers to the previous questions.
    I was--earlier this week I attended a summit down in Miami 
with representatives from Latin American countries, people who 
are also serving in those parliaments and congresses, and we 
were discussing the Middle East and unifying in support of 
Israel's security and with the situation that is going on there 
and the discussion, obviously, turned toward the role of Iran.
    Of course, in the Middle East they are pursuing a nuclear 
weapon. They are fomenting jihad in the Gaza Strip. They are 
fomenting jihad in Yemen, Iraq, in Damascus, and whether they 
pursue the nuclear weapon it is, obviously, a critical issue.
    But we discuss the extent to which Iran is seeking 
influence in Latin America and I think this is something that 
is a concern to, I know, the chairman and, certainly, to me.
    So General, what can you say about Iran's influence in 
Latin America?
    General Tovo. In an open forum, Congressman, I think we can 
say that the Iranians have some number of cultural centers----
    Mr. DeSantis. General, is your microphone on?
    General Tovo. It indicates that it is on. We can say at 
this level of classification that the Iranians have some level 
of cultural centers. They have seen an increase over the last 
decade in number of Embassies and outreach.
    As far as their level of political or diplomatic influence, 
I defer to the State Department to evaluate, and as far as 
their intentions in what I would call network development, I 
think we would have to do that in a classified setting.
    Mr. DeSantis. Okay. And the same question, again, what you 
can say, if anything, in an open forum about Sunni Islamists in 
the Western Hemisphere--in Latin America.
    General Tovo. I think we can, in this forum, safely say we 
have seen--you have probably seen reported in open source that 
some number of personnel from this region have gone to fight 
jihad--have been radicalized largely through Internet and other 
means much like we have seen out of our own country and out of 
Western Europe.
    It is certainly not near the numbers that we have seen out 
of other parts of the world, certainly out of Europe and North 
Africa.
    Mr. DeSantis. Thank God. So, I--and I have--I know you have 
discussed this in closed forums that I have been at and I 
appreciate that.
    But I--and we obviously want to respect that, what is open 
source. I think it is important to educate the American people 
on that because I know a lot of people are concerned.
    The child exploitation issue, and this may be for the State 
Department--last year, when they had the border crisis, I mean, 
you had a situation where minors were being sent with these 
human smugglers, with the drug cartels.
    You had a situation where many of them were being abused, 
and it was just a really awful situation that some of these 
kids were put through, that I know there was a lot of concern 
that the incentives that they were seeing out of our own 
Government was that hey, as long as you are under 18 if you get 
here you are never going to be sent back.
    And, obviously, I think, to see that policy outcome where 
you have people being--paying these criminal groups to smuggle 
people in that, clearly, is not something that we wanted to do. 
So what is the status of the cartels and the smugglers right 
now and, you know, have we seen a significant decline from last 
summer?
    Mr. Hamilton. Thank you, Congressman. Of course, we 
completely agree that the level of sexual and gender violence 
in the region itself is appalling and needs to change.
    The level of sexual violence on the dangerous journey was 
equally appalling. In fact, we had numerous stories of young 
girls using birth control in order to get through the journey, 
knowing very well or anticipating what they might face on the 
way. Those stories were shocking to every normal person.
    The criminal networks had, obviously, misled a vast number 
of children that they would be allowed to stay in this country, 
and that is something that they did repeatedly and successfully 
for a short period of time.
    It was our determination that criminal networks do not 
control U.S. immigration policy that led us to crack down in 
the way that we did. The messages that we went were not just 
about dangerous journeys which, frankly, the people in the 
region know very well, as their precautions would suggest.
    But, frankly, they were being misled by people who were 
just wanting to steal their money. This is a process that 
involves legal immigration and only legal emigration. So we are 
very, very aware of this.
    The strategy that we are imposing includes significant 
elements that are designed to protect women and children in the 
region both in their own countries and in any other--any other 
way.
    The desire that we have is that people in those countries 
build for themselves what they consider to be the Salvadoran 
dream or the Guatemalan dream or the Honduran dream and not 
seek to take advantage of their impression of the American 
dream, and I think USAID and other entities have specific 
programs that address gender and sexual violence against girls 
which, again, is a critical issue.
    Mr. DeSantis. Great. Yes. No, look, I think that this is 
something that is really heartbreaking when you really start to 
study it and, you know, some of these poor kids are just put 
through terrible, terrible circumstances and I think that we 
have to be foursquare our policy 100 percent--has got to 
disincentivize anyone from putting themselves in that position 
but, obviously, also be very hard about people who would--who 
would take advantage of them.
    I mean, some of these groups are just the worst of the 
worst. So I thank you for that and I yield back.
    Mr. Duncan. I want to thank the gentleman for bringing up 
the Iranian threat in the Western Hemisphere, something that I 
have been following.
    We did have a classified briefing last week, wasn't it, 
General? And I apologize that you weren't able to make that. I 
would ask the committee to try to facilitate maybe something in 
a little more intimate setting than what we had, even if 
General Kelly can't come to brief some of the members, because 
I think the threat is worth it.
    I am going to skip myself for just a minute. The ranking 
member has a meeting in his office so I am going to recognize 
him for a last question.
    Mr. Sires. I just want to thank you for being here and I 
also want to thank the former chairman for his kind words, and 
the current chairman. It is a pleasure to work with people like 
I have on my right and my left. Thank you very much.
    Mr. Duncan. I thank the gentleman--a great ranking member 
and I am glad for the working relationship we have.
    Just want to get into another round, and if the members 
want to stay--the gentleman from Florida, if you want to change 
out I am going to come back around if you would like to 
continue. I apologize for cutting you off.
    But I will recognize myself for another round of questions 
and I will direct this to the State Department. What we saw out 
of Plan Colombia was the original time frame and then an 
extension of that, because it was working, right?
    How many years of elevated levels of U.S. assistance will 
be necessary to sufficiently improve the socioeconomic and 
security conditions in Central America?
    Mr. Hamilton. Thank you, Congressman.
    Mr. Duncan. Look into your crystal ball and tell--no.
    Mr. Hamilton. A terrific question. This situation did not 
arise overnight, clearly--two decades or even longer to fester 
in the way that it has and we need to understand that, too.
    The Alliance for Prosperity plan that the Northern Triangle 
has developed has a 5-year horizon and a $20-billion price tag 
which--70 to 80 percent of which they intend to invest 
themselves either directly or through the private sector.
    So they have a 5-year horizon. That, frankly, may be 
slightly optimistic.
    I understand that in our strategy process we are looking 
at, I anticipate, a 3-year plan to try to help them and 
leverage U.S. assistance to achieve the results we are all 
seeking.
    You are quite right. Plan Colombia started in a certain way 
and expanded. It was heavily focused on security, for obvious 
reasons, in that country.
    But it, clearly, also included economic development 
assistance pretty much immediately after the FARC had been 
cleared out of areas.
    The FARC had often been cleared out but come back again and 
local people were very unclear as to who they should support 
our ally with because the state was never present. It was only 
when the state came in behind the military with doctors and 
clinics and teachers and presence of the state----
    Mr. Duncan. But it was broader than just the FARC. It was 
the cartels and drug trafficking and all of that, pushing 
everything to the border, dropping down their percentages of 
drug production and what not.
    Mr. Hamilton. That is right. One of Colombia's tremendous 
advantages was they already had a tremendously deep 
institutional quality.
    They had politicians, attorney general's office, Congress, 
Supreme Court--all of which were very mature, very democratic 
and very well organized. Those are things that Central America 
does not currently have and need to be built in order for them 
to take advantage of the types of things that we are talking 
about.
    So there are some similarities with Plan Colombia but some 
significant differences. You have functionally state weakness 
in the Northern Triangle that Colombia did not suffer from.
    Colombia also had a very much larger economy, able to 
invest much more much more quickly and a large territory where 
the economy could continue even while the war was being fought 
with the cartels and with the FARC.
    So they have many more advantages and, frankly, as well 
united political leadership over two consecutive terms of 
President Uribe.
    In the Northern Triangle, it is much harder because each of 
those countries has a divided legislature and it is harder to 
cobble together agreement to move forward. But they are doing a 
much, much better job than they have ever done.
    Mr. Duncan. But wouldn't you agree they have got a 
geographical advantage because the countries are a lot smaller?
    Mr. Hamilton. They do. El Salvador and Honduras are--well, 
Salvador is small. Honduras is quite large and Guatemala is 
very large as well. They also have a lot of----
    Mr. Duncan. I guess compared to Colombia, I guess. Yes.
    Mr. Hamilton. Yes, absolutely yes.
    Mr. Duncan. Okay.
    Mr. Brownfield. Mr. Chairman, may I? Because I have 
probably delivered 20 speeches.
    Mr. Duncan. And I am coming to you with the next question. 
Go ahead.
    Mr. Brownfield. I will wait patiently because I do have 
some Plan Colombia observations which, in fact, would be 
applicable, I believe, to Central America. But let us see if--
--
    Mr. Duncan. I am coming right now. So I would like you to 
answer that, Mr. Ambassador, but I would also like you to 
answer what would be the likely outcome if Congress failed to 
appropriate this money for the region?
    If we didn't give them $1 billion, what--so incorporate in 
your comments what would the likely outcome be?
    Mr. Brownfield. In fact, let me--it is a smooth conclusion 
to what I want to suggest to you. You and I have both been 
involved in Colombia--in Plan Colombia for a number of years, 
in my case since 1999.
    Some quick lessons learned--one was you are going to have 
to adjust along the way. As you correctly noted, we started out 
in Plan Colombia as a 5-year plan and we basically stretched it 
out for about 12 to 14 years before we declared that we were 
done.
    Second, sequencing--as Scott has mentioned, we started 
security heavy with the expectation that we would eventually 
move from security into economic development. We did, although 
it ended up taking longer to do it than we had originally 
thought.
    Third, political will and buy-in by the host government--as 
Scott points out, we got either three or six or seven 
governments that we need to work with in Central America, more 
complicated than just one in Colombia.
    Third, fourth--fourth, holistic, meaning you are trying to 
address all of the issues, not just security, and you are 
trying to bring in all the parts of the United States 
Government to work the issue.
    Sixth, connections to the United States--if we cannot 
convince the American people that there is a direct impact on 
them in terms of what is happening in this country, you, the 
representatives of the American people and the controllers of 
the purse strings, are not going to move the money down there.
    Monitoring and evaluation--as you have correctly noted, we 
have to be able to report on what is actually happening in 
these programs and in these countries.
    Finally, end gage and shut down--you almost never have a 
good plan. You know you are going to say we are going to end it 
when we have accomplished the mission. That doesn't work.
    At some point--at the 5-year mark, the 7-year mark, the 10-
year mark, you have to be in a position to say to you, the 
members of this committee, here is when we are going to 
conclude this exercise and go to some sort of sustainable 
program.
    Now, what is the impact? If, previously in Colombia, now in 
Central America, we don't, in a sense, perform these programs, 
implement these programs, and implement this strategy--we kind 
of have seen the impact.
    I would argue that is what we were watching last July, 
August, September on our Southwest border. But you will see 
others as well. The cartels that do not just move drugs--they 
also move people, firearms, counterfeit goods and basically 
anything that will produce income--will have a better base from 
which they can operate.
    We will see more gang activity in Central America that is 
tied, literally and directly, to gangs in the United States of 
America. The truth of the matter is what the impact is is a 
very easy argument for me to make.
    The question that you legitimately ask is so how much--how 
much is the right amount of money, what are the commitments we 
have received from these governments in advance and can I give 
you a reasonable time line in which you are going to see the 
results. That is what we are correctly discussing today and 
will continue, I suspect, for months to come.
    Mr. Duncan. Thank you for that.
    The last thing I will say, and I will go to the new ranking 
member, but in response to something Mr. Yoho said, when I was 
in Panama we met with President Varela and he said that they 
have an issue of police officers who are making $300 a month.
    It is very difficult to stop the corruption when that same 
officer could either look the other way and be involved in 
taking a bribe or whatever of an extraordinary amount of money 
to be able to provide for his family and what not. That is a 
dynamic that we can't overcome.
    I don't think we can provide enough money to pay those 
officers. I don't know that the countries can. It is a--those 
officers have to come to the mind-set that they are doing what 
is right for their country and ultimately for their family and 
their children by ending this corruption and not taking the 
bribe to provide financially but understanding a broader 
picture that they are improving their country for all Hondurans 
or all Guatemalans by not taking that bribe and actually 
enforcing the rule of law and providing stability and that is a 
cultural mind-set.
    And I hope that the programs that we are talking about are 
programs that will do that. I also heard that understanding 
from President Hernandez and that understanding from President 
Molina.
    So at the top that understanding is there. It has got to 
get down to the police officers and it has got to get down to 
the judges. Because we see it in Mexico as well.
    When we visit with the foreign ministers there and we visit 
with the civil society there, bribery and other things, and 
understanding that you are not going to have to pay a bribe to 
get out of jail--that the judge is actually going to look at 
the facts of the case and make a decision to either rule you 
guilty or innocent and get you out of jail in a timely manner.
    So, you know, it is much broader than just money, and I 
said that to the President at the trilateral meeting with the 
Northern Triangle countries. So we need to continue that.
    I want to applaud you for this hearing and the information 
you provided. This isn't the last one we are going to have, 
unfortunately. I will turn to Ms. Torres.
    Ms. Torres. Thank you so much, Mr. Chairman, and just a 
quick comment on this salary issue because it is--I think it is 
such an important issue that we need to address to 
professionalize these police departments.
    Just quick math--in El Salvador, it is $5 million 
investment to bring them to that $600 median income level. I 
don't think that is, you know, a big, big number and what we 
could get out of that is so important.
    While we were in El Salvador and Honduras, we had an 
opportunity to visit with the Ambassadors there in El Salvador. 
She is wonderful. You know, she--I don't think we could have 
chosen a better person. She is in the trenches visiting and 
talking to civil society, to community groups, and I was--I was 
very happy to hear about the work that she is doing there.
    But from your perspective, are they prepared--do they have 
the personnel that it will take to ensure that we are able to 
process these resources and that we are able to follow the 
money?
    Ms. Adams-Allen. Thank you, Congresswoman, for that 
question and statement. We believe that we are prepared. We are 
not looking necessarily to put additional funding through any 
governments and so we will be working with the partners that we 
currently have who are delivering the kinds of results that we 
need and building up our stable of partners in the region.
    It is really a matter of scaling out the numbers of 
partners that we have and we have the mechanisms in place and 
the systems in place to do that. So we believe we have the 
capacity to absorb this and to do that well.
    Ms. Torres. So does that mean scaling up current programs 
that have proven to be successful?
    Ms. Adams-Allen. Yes. We would start with current programs 
that have proven to be successful in the security realm, in the 
governance realm and in the prosperity realm, and in the 
interim design new programs.
    But we know the partners out there who would run those 
kinds of programs. So we believe we have enough partners to run 
current programs and to scale those but also to manage our new 
programs.
    Ms. Torres. Okay. So the Embassies are staffed to that 
level?
    Ms. Adams-Allen. We are staffing up our missions as USAID 
to do that--to be required to do that.
    Ms. Torres. Going back to a question I asked earlier, I 
don't know if I heard the answer to it, and do--are there 
resources to help victims of crime, to help them relocate 
victims of crime within these three countries?
    I am talking about shelters that are secured. So if a 
victim of domestic violence or a child victim of, you know, 
sexual abuse is needing to have--to be protected from their 
abusers, where do they--right now, I don't know where they go 
and right now they can't go to their government and say, you 
know, this is a crime that I am reporting--can you help me 
relocate to another place where I am safe other than the U.S.?
    Ms. Adams-Allen. Currently, USAID does support centers 
specifically for women and children in Guatemala, Honduras and 
El Salvador. We can get you details on how many and how many 
victims we believe they reach.
    Ms. Torres. I would like to have some information on that 
because we heard just the opposite in these two countries.
    Ms. Adams-Allen. Will do.
    Mr. Duncan. I thank the gentlelady. I will turn to Mr. Yoho 
from Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    And just for Ms. Torres and you, Mr. Chairman, you were 
talking about the money and you said $5 million in El Salvador 
would solve that problem.
    Think of the money we have spent--$2 trillion since '71, 
$23 billion in equivalence that we have spent. I mean, that 
would pay a lot of military and law enforcement, and that may 
be a better way to solve this problem.
    I want to direct this question to Mr. Hamilton. Since this 
hearing is on the billion-dollar request proposed for Central 
America, where is that $1 billion coming from? What pot of 
money is that coming from? Do you know?
    Mr. Hamilton. About half of the funding request is for 
development assistance and economic support.
    Mr. Yoho. No. But where is it coming from? Is it coming out 
of USAID or maybe one of the Embassies is getting shorted or--
do you know where the money is coming from that the President 
requested? Is it allocated? I mean, has it been authorized?
    Mr. Duncan. That is a great question. We haven't 
appropriated the money yet and if the--I would say--I think 
that is a great question for State. Where is this money coming 
from?
    Mr. Yoho. I would like if we can get them to submit where--
because it says here are there Embassies or USAID missions in 
the regions that will experience budget cuts so that the money 
can be redirected to fund the $1-billion extra increase.
    Mr. Brownfield. I think I can answer that question for you.
    Mr. Yoho. Yes, sir.
    Mr. Brownfield. It is--it is the President's budget request 
for Fiscal Year 2016. It has gone up to the United States 
Congress. The breakout is roughly the way Mr. Hamilton was 
describing it. The INCL money, which would be that which would 
be--we would reallocate it or appropriate it to INL that is 
$205 million. I believe there is some FMF, which is--which is 
foreign military funds and assistance. But the overwhelming 
majority and I believe it is somewhere in the vicinity of $600 
million, would be ESF and development assistance. It is not 
taken from anywhere. At the end of the day, it will be the 
United States Congress' determination, a plus up or not plus 
up.
    Mr. Duncan. Will the gentleman yield?
    Mr. Yoho. Yes, sir.
    Mr. Duncan. I guess what he is asking are any programs--
existing programs now going to suffer----
    Mr. Yoho. Right. That is what----
    Mr. Duncan [continuing]. From a shifting of resources or is 
this going to be a new appropriation where status quo for all 
the existing programs an additional amount of money.
    Mr. Yoho. That is kind of--is somebody going to be shorted 
in the end and if you don't have time to--you know, if you have 
to check into that, that is fine.
    I want to kind of redirect to Lieutenant General Tovo. To 
what extent was the Department of Defense involved in 
developing the new Central America strategy?
    General Tovo. The initial strategy we were provided input 
through the OSD and then since that time we have been very 
actively involved in the sub-IPC process ongoing that really 
has focused on how do we execute--how do we, you know, kind of 
take the broad strategy that has been developed and get into 
the programmatics. So we have been involved in all of the 
various meetings and conferences.
    Mr. Yoho. Okay.
    General Tovo. And then down on--additionally, of course, we 
are down with our partners helping them develop and implement 
their strategies and so we, you know, I think are involved kind 
of both sides of this process.
    Mr. Yoho. Okay. Thank you. And that $1 billion--the extra 
request is from the administration, how much of that is marked 
for the Department of Defense?
    You know, I read a report and I think you guys are short 17 
rapid response boats plus you are looking at decommissioning 
the 50-year-old boats from the Navy. I don't know if that is a 
wise investment.
    General Tovo. Congressman, at this point my understanding 
of the $1-billion proposal is that that is primarily going to 
State for the programs as discussed with the idea that we have 
already got money going against--sufficient money going against 
the security line of effort, and that most of the money would 
go into governance and prosperity lines of effort.
    But I think I will turn it back to State. They have got 
the--I think that Mr. Hamilton is on the money.
    Mr. Yoho. Mr. Hamilton.
    Mr. Hamilton. Yes, sir. There is a significant amount going 
to foreign military finance and IMET programs, which we 
consider to be especially effective in ensuring the integrity 
and professionalization of the regional militaries and that is 
very much part of--DoD manages that, of course, on behalf of 
the State Department. The strategy also includes the very 
significant plus-up on security lines of action which are 
consistent with a lot of the things that General Tovo and 
SOUTHCOM have been doing.
    In addition, it includes the governance and prosperity 
angles that, in our judgement, sustain the security gains and, 
again, very consistent with General Kelly's recent posture 
statement on the importance of those factors in ensuring that 
any gains we make are sustainable over time. We talk a lot to 
business men and women as well and we ask them what do you 
need.
    Their answer to us is, we can buy physical security--we do 
that all the time. It is a cost of doing business for us. What 
we cannot buy is the rule of law and juridical security and 
that is what we implore you to try to ensure.
    Mr. Yoho. And that is what I think we really need to work 
on because we can throw as much money at this problem as you 
want, but if we don't get to the basic problem we are treating 
symptoms when we need to get to the underlying diagnosis and 
cause of that.
    Mr. Chairman, I had one quick--one other question. With the 
problem we have in our country with drug use, do we need to 
refocus attention on our drug laws, maybe decriminalizing some 
things and look at reducing the threat or the penalty on these 
things? Say, marijuana, for one--it keeps coming up in meetings 
I go to. People say if you decriminalize it it gets rid of the 
foreign trade of marijuana coming into our country. And I am 
certainly not advocating that. I am looking to gather 
information.
    And the other thing--instead of having the War on Drugs, 
refocus on the war on gangs, both the domestic and foreign, in 
this country, and maybe it is time for an Eliot Ness moment 
from the old days and put more emphasis on running these people 
out of this country, and if you are going to do that you are 
not doing it here in our country. Just thoughts? If I have 
time, sir. Anybody want to weigh in on that?
    Mr. Brownfield. Would the chairman like to have a response? 
I don't see anyone else leaping for the microphone at this 
particular point in time.
    Mr. Chairman, members of the subcommittee, I would remind 
you that we all have kind of the international or outward 
looking responsibility.
    We are not those that are responsible for domestic law and 
domestic policy. So therefore, in a sense, we don't have a 
right to give you a formal position on domestic drug law 
modifications.
    That said, I will offer you 36\1/2\ years of experience in 
this business in terms of the argument that legalization 
somehow is going to solve this problem. And not to use too 
diplomatic an expression, I think that is just so much horse 
manure to suggest that one single step is going to make the 
entire problem go away.
    That has not been our experience overseas. That has not 
been our experience here. It is quite clear that in this 
country as well as in the entire world there is a debate, a 
discussion going on in terms of how we should modify, adjust, 
change our drug control policies and strategies.
    That is fine. I think everyone on this side of the table 
agrees with that. But we should perhaps avoid these simplistic 
suggestions that if we just arrest everyone who uses it--that 
is one extreme--or legalize the entire process--that is the 
other extreme--that will solve the problem.
    The solution must be found somewhere in between those two 
extremes and I would like to think that at some point in time 
we will move in the direction of those solutions. 
Internationally, we have a U.N. General Assembly special 
session scheduled for April of next year where the entire world 
is going to address these issues.
    We have laid out our own position which leaves open 
possibilities to discuss public health as an issue, criminal 
justice reform as an issue, legitimate issues to discuss, but 
perhaps veering away from the more simple solutions to this 
problem.
    Mr. Yoho. Well, I know there is not a simple solution but I 
think a redirection of where we are going. And have you seen an 
increase of drugs into the Caribbean from, say, South America, 
of all types?
    Mr. Brownfield. Yes, but with the following caveat. First, 
dating it and I would date it from about 2007, 2008, Congress, 
and second, the direction in which the stuff is moving, and 
this is to a certain extent a little noticed but fairly 
important point.
    The product that is moving from South America is 
decreasingly coming to the United States of America. Cocaine 
consumption in the United States of America since 2007 has 
dropped nearly 50--that is 5-0 percent.
    So what we are seeing in terms of increased movement 
through the Caribbean is actually movement that is headed east 
and it is on its way to new markets either directly in western 
Europe or via western Africa on its way to western Europe.
    Now, this isn't particularly good news for the Caribbean. 
They are still victims of criminal drug trafficking through the 
region. But it actually is not bad news for us.
    Mr. Duncan. And I agree with you. The gentleman's time has 
expired. We heard that when we were in Peru. We heard that when 
we were in Colombia. The gentleman from Florida was on the 
CODEL Royce with us where we heard some of that as well.
    I want to remind the gentleman from Florida some of the 
things we heard in Mexico and Colombia and Peru about the rule 
of law and the need for getting that graft and corruption and 
bribery issue out and why civil society down in Mexico is so 
important.
    So we have put the witnesses through an extraordinary 
amount of time today due to votes and all that.
    Mr. Yoho. We did. Thank you.
    Mr. Duncan. I want to thank you guys for--and ladies for 
being here. This is probably the first of several hearings we 
are going to have on this issue because we anticipate, as we 
heard today, an increase in unaccompanied children.
    This problem isn't going away overnight. I agree with 
Ambassador Brownfield that this is a long-term issue--that it 
needs a decade-old mind-set on Members of Congress but also 
those on the ground that are working on this. So I agree with 
you on that as well.
    I want to thank, again, the general for your service to the 
country and our staff--committee staff--will be in touch with 
SOUTHCOM about the classified briefing maybe. But I am going to 
get commitments from members to be there. I am not going to 
waste your time.
    I am going to make sure that they have a commitment to come 
because the briefing is so important because it is something 
that I have been following, as you know, for a very long time.
    So I want to thank the panelists, all of you, and with that 
we will stand adjourned.
    [Whereupon, at 4:43 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                 
                  
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
